DOE/IG-0538




          SPECIAL                MANAGEMENT CHALLENGES
          REPORT                         AT THE
                                  DEPARTMENT OF ENERGY




                                         DECEMBER 2001




    U.S. DEPARTMENT OF ENERGY
   OFFICE OF INSPECTOR GENERAL
     OFFICE OF AUDIT SERVICES
                 U. S. DEPARTMENT OF ENERGY
                       Washington, DC 20585

                         December 21, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                  INFORMATION: Special Report on "Management Challenges at
                          the Department of Energy"


BACKGROUND

At the request of congressional leadership, the Office of Inspector General has for the past
several years identified what it considers to be the most significant management and
performance challenges facing the Department of Energy. This effort, which was codified as
part of the Reports Consolidation Act of 2000, is now done on an annual basis and includes
an assessment of the agency's progress in addressing each challenge area. As in the past, the
methodology employed by this office relies on recent and on-gong audit, inspection, and
investigation work. The process places great emphasis on the identification of those
programs and operations with demonstrated performance problems and those which are, in
our judgment, inherently the most difficult to manage. While any analysis of this sort is
subjective, we believe that the result is a balanced, comprehensive depiction of Department-
wide challenges.

RESULTS

The following are the most serious challenge areas that the Department will need to address
in 2002 and beyond:

     •   Contract Administration
     •   Energy Supply
     •   Environmental Standards and Stewardship
     •   Human Capital
     •   Information Technology
     •   Infrastructure and Asset Management
     •   Performance Management
     •   Research and Development Investment
     •   Security and Safety
     •   Stockpile Stewardship

Management has initiated a number of positive actions to address some of the management
challenges. We have highlighted these actions within each summary area.
                                           -2-


Your views as detailed in The Mission and Priorities of the Department touched upon many
of the challenges identified in this report. In addition, several of the challenge areas
correspond to initiatives in The President's Management Agenda for Fiscal Year 2002. The
Office of Inspector General will continue to evaluate the Department's performance in
addressing these and related issues. We look forward to working with you and the
Department's senior staff on these matters.

Attachment

cc: Deputy Secretary
Under Secretary for Energy, Science and Environment
Administrator, National Nuclear Security Administration
Director, Office of Management, Budget and Evaluation
Chief of Staff
MANAGEMENT CHALLENGES AT THE DEPARTMENT OF
ENERGY

TABLE OF
CONTENTS



               Overview

               Introduction ................................................................................1

               Conclusions and Observations..............................................…..1


               Management Challenges at the Department of Energy

               Challenge Summaries ................................................................4


               Appendices

               Fiscal Year 2001-02 Reports Related to the Department's
               Management Challenges .........................................................18

               Crosswalk of Challenges ..........................................................26
OVERVIEW

INTRODUCTION      The Department of Energy (Department), established in 1977, conducts
                  programs relating to energy resources, national nuclear security,
                  environmental quality, and science. Its mission is to foster a secure and
                  reliable energy system that is environmentally and economically
                  sustainable; to be a responsible steward of the Nation's nuclear
                  weapons; to clean up the Department's facilities; to lead in the physical
                  sciences and advance the biological, environmental, and computational
                  sciences; and to provide premier scientific instruments for the Nation's
                  research enterprise. In carrying out this multifaceted mission, the
                  Department employs a unique workforce, including over 110,000
                  Federal and contractor employees and maintains a complex of national
                  laboratories, production facilities, and other buildings on over
                  2.5 million acres of land.

                  Accomplishing this significant national mission is replete with
                  management challenges. As such, the Department, the General
                  Accounting Office (GAO), and the Office of Inspector General (OIG)
                  have separately identified and categorized major challenge areas.
                  Further, the President has developed a number of initiatives, contained
                  in The President's Management Agenda for Fiscal Year (FY) 2002,
                  which are applicable to the Department. In accordance with the
                  mandate established in the Reports Consolidation Act of 2000, this
                  report sets forth the OIG's conclusions as to the most serious
                  management and performance challenges the Department faces. These
                  conclusions are based on knowledge gained through the performance of
                  audits, inspections and investigations of the Department and its
                  activities. The Department develops its inventory of Departmental
                  challenges in accordance with the Federal Managers' Financial Integrity
                  Act (FMFIA), and GAO has most recently detailed its assessment of the
                  Department's challenges in a January 2001 report Major Management
                  Challenges and Program Risks, Department of Energy, (GAO-01-246).


CONCLUSIONS AND   As of the end of Calendar Year 2001, the OIG has identified ten key
OBSERVATIONS      management challenge areas. Each area is briefly discussed in the body
                  of the report.

                  •   Contract Administration
                  •   Energy Supply
                  •   Environmental Standards and Stewardship
                  •   Human Capital
                  •   Information Technology


Page 1                                                                   Introduction/
                                                        Conclusions and Observations
         •   Infrastructure and Asset Management
         •   Performance Management
         •   Research and Development Investment
         •   Security and Safety
         •   Stockpile Stewardship

         The report summarizes our observations about the management
         challenges. In addition, we have cited recent OIG reviews that illustrate
         or identify key aspects of the challenge issues or specific operations and
         programs that may not achieve their intended results. We have also
         included, as appropriate, areas of positive progress in each area and
         briefly assessed the agency's actions in addressing those challenges.
         Appendix 1 lists key OIG reports issued during the past year that are
         associated with each of the challenge areas.

         In large measure, the list of challenges in this report, which are listed
         alphabetically, parallels the lists of years past. While some challenges
         are amenable to near-term resolution, others can only be addressed by a
         concerted, continuing effort, resulting in progress over a long period of
         time. As such, we would expect to continue seeing these challenge areas
         appear in future years. For example, even under the most optimistic
         assumptions, the effort to remediate the residual effects of the nuclear
         weapons program (Environmental Standards and Stewardship) will
         require decades to complete. It is unrealistic to anticipate that a program
         of this magnitude can be removed in the near term from a list of major
         Department challenges. Conversely, areas such as Security and Safety
         can, in our view, benefit from near term aggressive management action.

         Since last year, some of the challenge areas have evolved while others
         have been combined or re-titled to better capture the nature of the
         challenge. For example, Environmental Remediation was re-titled
         Environmental Standards and Stewardship to better reflect the broad
         scope of the issue and the Department's role in managing the legacy of
         the nuclear age, including the disposal of civilian spent nuclear fuel.
         Also, two new areas have been added, Performance Management and
         Research and Development Investment, to address these significant
         management challenges. Appendix 2 presents a crosswalk between the
         current list and the list we provided last year.




Page 2                                           Conclusions and Observations
         The Secretary of Energy touched on many of these challenges in
         October 2001 when he shared his views on The Mission and Priorities
         of the Department. Prevalent in these views were priorities relating to
         energy supply, environmental standards and stewardship, human
         capital, performance management, research and development
         investment, security and safety, and stockpile stewardship.

         Consistent with the requirements of the Government Performance and
         Results Act, the Department should aggressively work to develop and
         implement performance goals and measures that directly address each
         of the management challenges identified in this report. Further, actual
         performance should be assessed against these goals and measures and
         be independently validated.




                                                     (Signed)
                                              Office of Inspector General




Page 3                                         Conclusions and Observations
MANAGEMENT CHALLENGES AT THE DEPARTMENT OF ENERGY
Challenge Summaries   The following sections briefly summarize our observations regarding
                      the challenge areas, including, where appropriate, Departmental efforts
                      or accomplishments that have come to our attention. We also briefly
                      assess the Department's progress in addressing each challenge. In
                      addition, we have identified the relationship between these areas and
                      the initiatives in The President's Management Agenda for Fiscal Year
                      2002.

                                              Contract Administration

                      The Department's programs are largely accomplished through
                      contractors that operate and manage a broad range of scientific and
                      production activities and facilities for the Department. These contracts
                      represent the largest share of the Department's annual budget. Contract
                      Administration, which includes project management, has been a
                      longstanding challenge.

                      The Department continues to experience difficulties in managing some
                      of its major projects. For the most part, these projects are managed by
                      the Department's prime contractors. Cost overruns, schedule delays and
                      undesirable scope reductions have been recurring problems. Since the
                      early 1990s, the OIG has issued a series of reports critical of the
                      planning, justification, and management of major projects. Most
                      recently, our audit of Progress of the Spallation Neutron Source
                      Project, (DOE/IG-0532, November 2001, http://www.ig.doe.gov/pdf/
                      ig-0532.pdf) indicated that the project's technical scope was reduced to
                      allow the cost and schedule components to be met. Contrary to original
                      commitments, in June 2006, the anticipated completion date, the project
                      will not:

                      •   Have instruments to address all of the initially planned areas of
                          science;
                      •   Provide complete user facilities; and
                      •   Possess critical spare parts and equipment.

                      In a Follow-on Inspection of the Department of Energy's Value
                      Engineering Program (DOE/IG-0536, December 2001, http://www.ig.
                      doe.gov/pdf/ig-0536.pdf), we noted that despite a requirement dating to
                      1993, the Department had not developed or implemented an effective
                      value engineering program. Value engineering, an analytical
                      management tool, serves to ensure realistic budgets, identify
                      unnecessary costs, and improve program performance. Recent efforts
                      by the Department to address project management issues include
                      development of a Project Analysis and Reporting System, use of earned
                      value management systems, and mandatory acquisition planning.

Page 4                                                                 Challenge Summaries
         During the past year, OIG reports have also disclosed continuing
         challenges associated with performance-based incentives and associated
         fees at the major contractor locations. For example, our audit of Use of
         Performance-Based Incentives at Selected Departmental Sites, (DOE/
         IG-0510, July 2001, http://www.ig.doe.gov/pdf/ig-0510.pdf) pointed
         out that the Department's performance-based incentives, which are used
         to determine fee payments to the contractor, were not consistently
         structured in a manner that would result in improved contractor
         performance. In Inspection of Selected Aspects of the Office of River
         Protection Performance-Based Incentive Program, (DOE/IG-0506,
         June 2001, http://www.ig.doe.gov/pdf/ig-0506.pdf), we reported that
         actions are required by Office of River Protection officials to improve
         the administration and effectiveness of the performance-based contract
         incentive program. Further, Incentive Fees for Bechtel Jacobs
         Company LLC, (DOE/IG-0503, May 2001, http://www.ig.doe.gov/pdf/
         ig-0503.pdf) disclosed that the Oak Ridge Operations Office did not
         finalize performance objectives for the contractor prior to the beginning
         of the applicable year and then modified performance objectives during
         the year to reduce expectations.

         In addition, our report on Fixed-Price Contracting for Department of
         Energy Cleanup Activities, (CR-B-02-01, October 2001, http://www.
         ig.doe.gov/pdf/crb0201.pdf) noted that the projected savings expected
         as the result of using fixed-price contracting are unlikely to be fully
         achieved. Although management did not fully agree with some of our
         findings, there was a general consensus that improvements could be
         made in each of these areas. Finally, we also have an ongoing review
         of Purchase Card Programs in which we identified many examples of
         Government purchase card misuse, including inappropriate purchases
         of home improvement items, hunting equipment and accessories,
         electronics, lawn equipment, and power tools.

         The Department has recognized that the challenge of greater
         government and contractor performance lies both with the structure of
         contracts and also with the efforts of the government team that manages
         and administers those contracts. A number of actions have been
         initiated recently to change Department strategy for administering and
         managing these contracts. These efforts include revised or new
         guidance, workshops, and studies. Further, the Department's Office of
         Management Systems was reorganized into the Office of Contract
         Management and a separate division was established within that office
         to concentrate on the challenges of contract administration.




Page 5                                                   Challenge Summaries
         While the Department has taken many actions to improve contract
         administration, more needs to be done. The Department is exploring
         new governance proposals for some of its contractors. Based on our
         experience, it is important that the Department maintains an appropriate
         balance between giving contractors the flexibility to accomplish the
         Department's missions and ensuring proper stewardship of government
         resources. In our judgment, improvement in successfully linking
         contracting to program and performance management represents one of
         the greatest opportunities for enhancing the economy and efficiency of
         Departmental operations.

                                       Energy Supply

         As evidenced by electricity supply problems in several Western states
         last summer, the United States continues to face a delicate balance
         between energy demand and supply. In this regard, if the economy
         grows over the next 20 years at a rate similar to that of the last 10 years,
         increases in U.S. energy consumption will significantly outpace
         production. In fact, the nation's dependence on oil is at an all-time high
         and is expected to grow. Between 1991 and 2000, Americans used 17
         percent more energy than in the previous decade while domestic energy
         production rose by only 2.3 percent. As the Federal agency responsible
         for energy policy at the national level, the Department will have a
         critical role in addressing this challenge.

         Our nation imports more than 53 percent of its petroleum, much of it
         coming from the Persian Gulf region. The Department estimates that
         this will increase to 62 percent by the year 2020. In 1990, Congress
         declared that dependence over 50 percent on foreign oil should be
         considered a peril point. Recent world events have underscored the
         paramount importance of maintaining an adequate energy supply for
         national security.

         During the past year, OIG reviews have disclosed certain instances
         where the Department was not achieving the maximum benefit from its
         energy-related programs. For example, our audit report, Department of
         Energy's Super Energy Savings Performance Contracts, (DOE/
         IG-0499, April 2001, http://www.ig.doe.gov/pdf/ig-0499.pdf), noted
         that the Department had not maximized the use if its cost-recovery
         authority. Additionally, our report on Financial Assistance for
         Biomass-to-Ethanol Projects, (DOE/IG-0513, July 2001, http://www.
         ig.doe.gov/pdf/ig-0513.pdf) pointed out that the Department did not
         meet its programmatic goal of having a full-scale commercial biomass
         production facility built by 2000.


Page 6                                                     Challenge Summaries
         The Department was a major participant in the President's Energy
         Policy Development Group, which produced a National Energy Policy.
         This policy, published in May 2001, is designed to help the private
         sector and, as appropriate, government at all levels, to ensure that there
         are adequate energy resources to meet the needs of U.S. citizens. In
         addition, in November 2001, the President directed the Department to
         fill the Strategic Petroleum Reserve, which provides protection against
         oil supply disruptions, to its capacity of 700 million barrels of crude oil.

         Energy supply issues represent one of the most important policy and
         programmatic challenges facing the Department. As the Administration
         and Congress have recognized, energy supply issues have serious
         implications for our economic and national security. This, in our view,
         deserves the Department's priority attention. A variety of audits and
         inspections are currently ongoing or planned in this area.

                        Environmental Standards and Stewardship

         The Department is charged with the daunting task of protecting human
         health and the environment by cleaning up sites that supported nuclear
         weapons production activities. It must also address the need to
         permanently dispose of defense-related high-level radioactive wastes as
         well as spent nuclear fuel from civilian nuclear power plants. All of
         these activities must be carried out consistent with established Federal,
         state, and local requirements and standards. These environmental
         stewardship activities are some of the most complex managerial and
         public policy issues facing this nation, let alone the Department.

         Although the Department's goal has been to clean up as many sites as
         possible by 2006, it may not be able to meet that date in as many cases
         as anticipated. For example, in our report Remediation and Closure of
         the Miamisburg Environmental Management Project, (DOE/IG-0501,
         May 2001, http://www.ig.doe.gov/pdf/ig-0501.pdf), we found that the
         estimated date for project completion was December 2009 rather than
         the planned date of September 2005 and that the estimated cost for the
         project had more than doubled. In a related report on the remediation
         of the Ashtabula Environmental Management Project (AEMP), we
         found that the project was not on schedule to be completed by
         March 31, 2003. After spending 8 years and $103 million, the AEMP
         had twice as much equipment and 84 percent more building space than
         when the project began. The latest estimate for completion of the
         project is FY 2012. In addition, GAO reported that the Department is
         unlikely to meet the December 2006 target closure date for Rocky Flats
         (GAO-01-284, Nuclear Cleanup: Progress Made at Rocky Flats, but
         Closure by 2006 is Unlikely, and Costs May Increase).

Page 7                                                     Challenge Summaries
         Other OIG reviews have noted the need for increased management
         attention to achieving intended environmental cleanup outcomes. For
         example, our audit of Utilization of the Department's Low-Level Waste
         Disposal Facilities, (DOE/IG-0505, May 2001, http://www.ig.doe.
         gov/pdf/ig-0505.pdf) concluded that the Department did not have a
         comprehensive approach to maximize waste disposal resulting in
         unused capacity and increased risk. Another report, Idaho Operations
         Office Mixed Low-Level Waste Disposal Plans, (DOE/IG-0527,
         September 2001, http://www.ig.doe.gov/pdf/ig-0527.pdf), found that
         the Idaho Operations Office had not fully explored more cost-effective
         options for disposing of its mixed low-level waste.

         In April 2001, the Secretary announced a significant new
         environmental initiative. The Secretary stated, in part, that

                 …we will begin immediately to conduct a complete
                 assessment of our Environmental Management mission. A
                 number of reviews have been conducted over the last several
                 years including studies by the National Academy of Sciences
                 and the Inspector General that cite high costs, inefficiencies,
                 and a lack of progress in parts of the cleanup program. Much
                 of the Department's cleanup strategy was developed in the
                 early part of the last decade. We've learned a great deal over
                 these years and those lessons should be applied.

                 Accordingly, our top-to-bottom review will focus on what has
                 prevented us from narrowing the cost and efficiency gap and
                 whether our current strategies are suitable. What is more,
                 DOE's own policies and procedures may well cause much of
                 the inefficiency in the program. I want those identified. And
                 they will change.

         We view this effort as encouraging, specifically, the promise that the
         Secretary's initiative holds for a more efficient and responsive
         environmental cleanup effort. The OIG will continue to monitor the
         Department's performance in this critically important area.

                                      Human Capital

         Since 1995, the Department has reduced Federal staff (excluding the
         Power Marketing Administrations) from 13,640 to 10,333 through
         reductions in force, buyouts, and attrition. During this period, the
         average age of employees in the Department has increased from 44 to



Page 8                                                   Challenge Summaries
         48. Currently, only nine percent of the workforce is under the age of 35
         and the situation is even more severe for the technical workforce, which
         has only six percent of its population under 35. The high average age
         combined with a very low number of younger employees leads to
         concerns about succession planning and the infusion of new ideas and
         sustaining technical capabilities. In FY 2001, 13 percent of the DOE
         workforce was eligible to retire. This will increase to 32 percent by FY
         2005. It is projected that about one third of the Federal employees now
         on-board at the Department will retire by
         FY 2007.

         In addition, much of the Department's work on critical missions is
         conducted by major contractors, which employ over 100,000 workers at
         production facilities, environmental cleanup sites, and national
         laboratories across the nation. Some of these contractors have faced
         similar issues in recruiting and retaining a quality workforce with the
         appropriate skill mix. The experienced designers and engineers who
         built the weapons in the stockpile and understand how they work are
         reaching or past retirement age. The Department is also faced with
         shortages of technicians skilled in techniques associated with weapons
         production, such as the plutonium pit manufacturing process. In
         addition, GAO has cited cost overruns on the National Ignition Facility
         as being partly attributable to inexperienced managers on the project.

         Strategic Management of Human Capital is one of the President's
         Government-wide initiatives for FY 2002. The Federal workforce as a
         whole is experiencing many of the same problems that the Department
         faces, including a workforce that is substantially smaller and has an
         increasing average age. We have been monitoring the human capital
         issue through our role in the FMFIA process and other audit work. For
         example, in our report on Recruitment and Retention of Scientific and
         Technical Personnel, (DOE/IG-0512, July 2001, http://www.ig.doe.
         gov/pdf/ig-0512.pdf) we reported that the Department was unable to
         recruit and retain critical scientific and technical staff in a manner
         sufficient to meet identified mission requirements. Based on our
         analysis of attrition and hiring since 1999, we determined that as of
         January 2001, the Department faced an immediate need for as many as
         577 scientific and technical specialists. Further, if this trend continues,
         the Department could face a shortage of nearly 40 percent in these
         classifications within five years.

         The Department has recognized the seriousness of its recruitment and
         retention problems. During 2001, the Department submitted a
         workforce analysis and a multi-year workforce restructuring plan to the

Page 9                                                     Challenge Summaries
          Office of Management and Budget (OMB) and convened a Human
          Capital Summit to identify a full range of Human Capital initiatives in
          support of rebuilding the Department's workforce and making the
          Department an employer of choice. On August 30, Deputy Secretary
          Blake announced some short-term human capital initiatives to "jump
          start" the Department's workforce rebuilding and restructuring process
          in areas including performance management, management efficiency,
          recruitment and retention, diversity, leadership development and
          succession planning. These are good first steps; however, the
          resolution of human capital issues will take time and need to be
          addressed in a comprehensive fashion that includes specific measurable
          goals for closing critical skill gaps.

                                 Information Technology

          The Department spent over $1.1 billion on Information Technology
          (IT) in FY 2001. Effective IT management is essential to the
          Department's performance of its multifaceted mission. To enhance the
          management and control of IT Government-wide, Congress passed the
          Clinger-Cohen Act of 1996, which establishes comprehensive
          requirements in the IT area. It requires Federal agencies to appoint a
          Chief Information Officer (CIO) to manage IT investments and to adopt
          a performance-and-results-based management approach to acquiring,
          using, and disposing of IT. In addition, Expanded Electronic
          Government is one of the President's Government-wide initiatives for
          FY 2002. The goal is for the Federal government to secure greater
          services at lower cost through electronic government and meet high
          public demand for services.

          This past year we issued a special report on The Department of
          Energy's Implementation of the Clinger-Cohen Act of 1996, (DOE/IG-
          0507, June 2001, http://www.ig.doe.gov/pdf/ ig-0507.pdf), which
          summarized 13 IT related OIG reports. Cumulatively, these reports
          demonstrated systemic problems with the Department's approach to IT
          management and its method of addressing requirements of the Act.
          Specifically, the Department had not satisfied major requirements of the
          Act to develop and implement an integrated, enterprise-wide, IT
          architecture, closely monitor policy implementation efforts, and acquire
          IT related assets in an effective and efficient manner.

          The Department has recently taken a number of actions designed to
          improve the overall management of information technology resources,
          including making the CIO a direct report of the Secretary. Other
          ongoing actions include initiatives to:


Page 10                                                  Challenge Summaries
          •   improve computer security,
          •   broaden the coverage of the information technology architecture,
          •   consolidate shared services,
          •   eliminate or reduce the development of duplicative systems, and
          •   modernize Departmental systems.

          While these initiatives have resulted in certain efficiencies and have
          great promise, opportunities for additional improvements in IT
          management and cyber security exist.

                           Infrastructure and Asset Management

          The Department's physical infrastructure includes more than 50 major
          facilities in 35 states. These facilities include structures ranging from
          temporary trailer-type buildings, to office space, to state-of-the-art
          nuclear reactors and laboratories. It has about 125 million square feet
          of building space, 4,000 miles of roads, over 100 miles of railroad
          track, and 1.1 million feet of sidewalks and other infrastructure
          components. For several years, the OIG has reported that the condition
          of the Department's infrastructure is deteriorating at an alarming pace
          and may be inadequate in the future to meet mission requirements. Our
          continuing work in this area indicates that it remains a key challenge for
          the Department.

          Last year we noted, in our report on Management of the Nuclear
          Weapons Production Infrastructure, (DOE/IG-0484, September 2000,
          http://www.ig.doe.gov/pdf/ig-0484.pdf), that the production
          infrastructure had seriously degraded. Since that time, others have
          reported similar results and management has initiated various planning
          and budgetary efforts to resolve this situation.

          We have also noted this trend in non-defense related activities. For
          example, our audit of Facility Maintenance at the Idaho National
          Engineering and Environmental Laboratory, (WR-B-01-04, March
          2001, http://www.ig.doe.gov/pdf/wrb0104.pdf) noted that the Idaho
          Operations Office has not maintained its facilities in a safe and
          economical manner. A sample of recent work orders for preventive
          maintenance revealed that 51 percent were not completed by the
          requested due date, and facility problems were often related to untimely
          completion of maintenance work orders.

          In response to one of our prior audits, Facilities Information
          Management System, (DOE/IG-0468, April 2000, http://www.ig.doe.
          gov/pdf/ig-0468.pdf), the Department has taken action to improve its

Page 11                                                    Challenge Summaries
          corporate real property database. In August 2001, fields in the database
          were revised to include only information essential to real property
          management, and the Department began a two-step data field
          population process, with all fields expected to be populated by
          September 30, 2002.

          Our reviews have also noted problems in asset management. An audit
          on Accounting for Government-Owned Nuclear Materials Provided to
          Non-Department Domestic Facilities, (DOE/IG-0529, October 2001,
          http://www.ig.doe.gov/pdf/ig-0529.pdf) concluded that the Department
          could not fully account for nuclear materials loaned or leased to
          domestic licensees. According to records in the Nuclear Materials
          Management and Safeguards System, substantial amounts of nuclear
          materials were located at two licensed facilities that no longer existed;
          several licensed facilities were shown as having negative balances that
          were not logical; and records were incomplete in that they did not
          contain information on all reportable Government-owned nuclear
          materials provided to licensees. In relation to personal property, our
          audit Sandia National Laboratories Personal Property Accountability,
          (DOE/IG-0523, September 2001, http://www.ig.doe.gov/ pdf/ig-0523.
          pdf) disclosed that the fixed asset database maintained by Sandia
          National Laboratories was not accurate. Similarly, in our report on
          Inspection of the Management of Personal Property at the Ashtabula
          Environmental Management Project, (DOE/IG-0530, November 2001,
          http://www.ig.doe.gov/pdf/ig-0530.pdf) we concluded that the
          Ashtabula site was not managing Government-owned personal property
          in accordance with requirements and that, as a consequence, contractors
          were stockpiling personal property without a valid need or mission
          requirement.

          While the Department has taken steps to improve its management of
          infrastructure and asset inventories, such as seeking additional funding
          for infrastructure purposes, drafting management policy for real
          property, and demonstrating new technologies to identify and track the
          locations of assets, more needs to be done. The deterioration of
          infrastructure in the Department is at a critical stage.

                                 Performance Management

          In 1993, Congress enacted the Government Performance and Results
          Act to get the Federal government to focus federal programs on
          performance. After eight years of experience, the Department has made
          some progress toward the use of performance information for program
          management. However, additional work needs to be done to ensure that
          the Department has the metrics in place and uses them to manage its
          programs and activities effectively.
Page 12                                                   Challenge Summaries
          In a Special Report on Performance Measures at the Department of
          Energy, (DOE/IG-0504, May 2001, http://www.ig.doe.gov/pdf/ig-
          0504.pdf), we identified problems with the usefulness and completeness
          of the performance measures and the validity and accuracy of some of
          the results reported. Specifically: (1) several measures were not
          objective or quantifiable, (2) critical measures relating to some of the
          Department's major challenge areas were not present, and (3)
          performance results reported for the selected measures were not always
          accurate and valid.

          Performance management challenges are not unique to the Department.
          In fact, performance measures in the Federal government as a whole
          tend to be ill-defined and not properly integrated into agency budget
          submissions or the management and operation of agencies. This was
          recognized in The President's Management Agenda for Fiscal Year
          2002, which identified Budget and Performance Integration as a
          Government-wide initiative for FY 2002.

          In response to past criticism of its performance management activities,
          the Department has recently created the Office of Program Analysis and
          Evaluation and is moving toward a five-year planning, programming
          budget and evaluation system, which is intended to better integrate
          improved performance measures with the budget.

          To be meaningful, performance measures should be clear and
          quantifiable. Further, program costs need to be directly tied to
          outcomes. The Department is in the design phase of implementing a
          new accounting and financial reporting system (Business Management
          Information System – Phoenix). This system is intended, among
          several objectives, to provide expanded capabilities that will facilitate
          future integration with the Department's performance management
          system. This initiative is a positive step that will require significant
          management attention to meet the Department's objectives.

                           Research and Development Investment

          Better R&D Investment Criteria is one of the President's Program
          Initiatives for FY 2002. Science and technology are critically important
          to keeping the nation's economy competitive and for addressing
          challenges we face in health care, defense, energy production and use,
          anti-terrorism, and the environment. As such, every Federal research
          and development dollar must be invested as effectively as possible.



Page 13                                                 Challenge Summaries
          During FY 2001, the Department spent about $7.7 billion on a broad
          range of research activities, representing more than 40 percent of its
          budget. However, the OMB has been critical of some of the
          Department's research and development efforts. For example, it
          reported that the Department funded development of a midsize turbine
          that had already been successfully commercialized. OMB also reported
          that the Department continued to fund gas-to-liquid conversion research
          even though the process has been commercialized to the point that one
          multinational oil company is considering investing up to $6 billion for
          new plants based upon this technology.

          This past year, we focused our attention on examining whether the
          Department was ensuring that the results of research it funds were being
          properly disseminated. In this regard, our report Albuquerque
          Operations Office's Grant Administration, (DOE/IG-0524, September
          2001, http://www.ig.doe.gov/pdf/ig-0524.pdf) noted that Albuquerque
          was not receiving many of the deliverables specified in its grants. As of
          May 2001, Albuquerque had not received final deliverables for 11 of
          the 28 completed grants examined. Another audit, Peer-Reviewed
          Scientific Literature Generated at the Department's Light Sources,
          (DOE/IG-0520, August 2001, http://www.ig.doe.gov/pdf/ig-0520.pdf),
          disclosed that only 44 percent of the abstracts associated with the
          research performed at the Department's light source laboratories in
          FY 2000 were available for public dissemination through the
          Department's Office of Scientific and Technical Information. A third
          audit on Grant Administration at the Oakland Operations Office has
          indicated that the results of many science and technology endeavors
          were not forwarded to the Office of Science and Technology
          Information for dissemination to the scientific community and the
          public.

          Given the magnitude of the Department's research and development
          activities and the great benefit that can flow from these activities,
          significant care needs to be taken in the prioritization and management
          of these activities. Accordingly, this challenge area will be a continuing
          area of focus for the OIG.

                                     Security and Safety

          The Department's complex is large and multi-faceted with a wide
          variety of locations, facilities, sensitive materials, and activities that
          must be kept safe and secure. However, audits and inspections have
          demonstrated that security and safety controls need to be strengthened.


Page 14                                                    Challenge Summaries
          Specifically, our Inspection of Department of Energy Activities
          Involving Biological Select Agents, (DOE/IG-0492, February 2001,
          http://www.ig.doe.gov/pdf/ig-0492.pdf) concluded that the
          Department's biological select agent activities lacked organization,
          coordination, and direction. This resulted in the potential for greater
          risk to workers and possibly others from exposure to biological select
          agents and select agent material. Another inspection, Environment,
          Safety & Health Issues at the Ashtabula Environmental Management
          Project (INS-L-01-05, June 2001, http://www.ig.doe.gov/pdf/insl0105.
          pdf), noted that our physical inspection of buildings and equipment
          revealed conditions that raised concern about worker safety and health.

          In our report, Lawrence Livermore National Laboratory Protective
          Force and Special Response Team, (DOE/IG-0534, December 2001,
          http://www.ig. doe.gov/pdf/ig-0534.pdf), 11 recommendations were
          made to management that if implemented, will improve the site's ability
          to comply with the Site Safeguards and Security Plan, improve
          protection of Special Nuclear Material, and provide clearer guidance for
          site protective force operations. In addition, a classified report raised
          concerns over the control of classified matter at the Paducah site.

          With reference to The Department's Unclassified Cyber Security
          Program, we determined that while the Department has made
          improvements in its unclassified cyber security program, the program
          did not adequately protect data and information systems as required by
          the Government Information Security Reform Act.

          In addition to security for its own sites and systems, the Department has
          other responsibilities related to ensuring security of the nation. For
          example, our report on Accounting for Government-Owned Nuclear
          Materials Provided to Non-Department Domestic Facilities, (DOE/IG-
          0529, October 2001, http://www.ig. doe.gov/pdf/ig-0529.pdf)
          concluded that the Department could not fully account for nuclear
          materials loaned or leased to domestic licensees. In our judgment, the
          system used to track this material should be used as an important tool
          for maintaining the strictest possible control over materials that could,
          in the wrong hands, threaten national security. In addition GAO has
          reported challenges the Department faces in its efforts to improve the
          security of hundreds of tons of nuclear material at various sites
          throughout Russia.




Page 15                                                   Challenge Summaries
          Security activities have increased in light of the recent national tragedy.
          Consistent with this increased attention, security and safety continue to
          be among the most difficult challenges facing the Department.

                                    Stockpile Stewardship

          The National Nuclear Security Administration (NNSA) was established
          in March 2000. Last year, we reported Issues Relating to the Creation
          of the NNSA as a significant management challenge facing the
          Department. This challenge focused mainly on creating a new
          Government enterprise, but referenced other challenges identified in the
          report. NNSA still has some of these issues to deal with, but this year,
          we have identified the efficient and effective performance of its primary
          mission as a significant management challenge—namely, Stockpile
          Stewardship.

          In 1993, the President and Congress reaffirmed the moratorium on
          underground nuclear testing and directed that a science-based Stockpile
          Stewardship Program be developed to maintain the nation's stockpile of
          nuclear weapons. The Department's plan for stockpile stewardship
          describes it as one of the most complex, scientifically technical
          programs ever undertaken. The program consists of surveillance,
          experimentation, computation, and production. Its focus is to maintain
          "high confidence" in the safety and reliability of the stockpile without
          nuclear testing.

          The Department is required, based on activities conducted under the
          Stockpile Stewardship Program, to annually certify to the President that
          the nuclear weapons stockpile is, in fact, safe and reliable and that
          underground nuclear testing does not need to be resumed. Ultimately,
          the program's success is dependent upon developing an unprecedented
          set of scientific tools to better understand nuclear weapons, enhancing
          stockpile surveillance capabilities, and in the process, extending the life
          of the weapons that comprise the stockpile. Responsibility for stockpile
          stewardship rests with the NNSA.

          During the past year, OIG reviews have disclosed difficulties the
          Department is having with meeting this critical mission, which is vital
          to our national security. For example, our audit of Stockpile
          Surveillance Testing, (DOE/IG-0528, October 2001, http://www.ig.doe.
          gov/pdf/ig-528.pdf) disclosed that the Department has not been
          meeting its schedule for some flight, laboratory, and component tests;
          and backlogs are projected to continue for several years. Without a
          robust and complete surveillance testing program, the Department's

Page 16                                                     Challenge Summaries
          ability to assess the reliability of some nuclear weapons is at risk. In a
          related review, Management of the Stockpile Surveillance Programs'
          Significant Finding Investigations, (DOE/IG-0535, December 2001,
          http://www.ig.doe.gov/pdf/ig-535.pdf), we determined that the
          Department was not processing and resolving defects and failures
          identified during stockpile surveillance testing in a timely manner.




Page 17                                                     Challenge Summaries
APPENDIX 1
                           Fiscal Year 2001-02 Reports Related to the
                            Department’s Management Challenges

Contract Administration

Issued Reports:

2001-12-20 - Report IG-0536:
Inspection Report on "Follow-on Inspection of the Department of Energy's Value Engineering Program"

2001-11-19 - Report IG-0532:
Audit Report on "Progress of the Spallation Neutron Source Project"

2001-10-15 – Report CR-B-02-01:
Audit Report on "Fixed-Price Contracting for Department of Energy Cleanup Activities"

2001-07-09 - Report IG-0510:
Audit Report on "Use of Performance-Based Incentives at Selected Departmental Sites"

2001-06-14 - Report IG-0506:
Inspection Report on "Inspection of Selected Aspects of the Office of River Protection
Performance-Based Incentive Program"

2001-05-09 - Report CR-B-01-01:
Audit Report on "Issues Regarding Fee Structure for Three Environmental Management Contracts"

2001-05-07 - Report IG-0503:
Audit Report on "Incentive Fees for Bechtel Jacobs Company LLC"

2001-03-21 - Report IG-0498:
Audit Report on "Bechtel Jacobs Company LLC's Management and Integration Contract at Oak Ridge"

Ongoing Reviews:

Purchase Card Programs
Kaiser-Hill Closure Project Costs and Fees at the Rocky Flats Environmental Technology Site
Brookhaven Subcontracting
Privatization of Services at the Savannah River Site
Relativistic Heavy Ion Collider Construction Management
Lawrence Livermore Special Employment Program
Energy Efficiency and Renewable Energy- Grant Irregularities
Oak Ridge National Laboratory Directing of Subcontract Task
Carlsbad – Questionable Travel


Page 18                                                    Fiscal Year 2001-02 Reports Related to the
                                                               Department’s Management Challenges
Energy Supply

Issued Reports:

2001-07-16 - Report IG-0513:
Audit Report on "Financial Assistance for Biomass-to-Ethanol Projects"

2001-04-02 - Report IG-0499:
Audit Report on "Department of Energy's Super Energy Savings Performance Contracts"
Ongoing Reviews:

Repayment Activities
Bi-National Sustainability Laboratory
Efforts to Replace Petroleum Based Motor Fuels
In-House Energy Management Program


Environmental Stewardship

Issued Reports:

2001-11-13 - Report IO1IG001:
Investigation Report on "Review of Alleged Conflicts of Interest Involving a Legal Services Contract for
the Yucca Mountain Project"

2001-09-28 - Report IG-0527:
Audit Report on "Idaho Operations Office Mixed Low-Level Waste Disposal Plans"

2001-05-25 - Report IG-0505:
Audit Report on "Utilization of the Department's Low-Level Waste Disposal Facilities"

2001-05-02 - Report IG-0501:
Audit Report on "Remediation and Closure of the Miamisburg Environmental Management Project"

2001-04-23 - Report I01HQ005:
"Special Review of the Yucca Mountain Project"

2000-11-28 - Report IG-0490:
Audit Report on "Containers Suitable for Shipping Fissile Material"

2000-11-28 - Report IG-0489:
Audit Report on "Americium/Curium Vitrification Project at the Savannah River Site"



Page 19                                                    Fiscal Year 2001-02 Reports Related to the
                                                               Department’s Management Challenges
Ongoing Reviews:

Groundwater Cleanup Activities at Pantex
Idaho Settlement Agreement Milestones
Waste Isolation Pilot Plant Transportation Plan
Completion of CERCLA and Federal Facility Agreement Milestones
Defense Facilities Site Closure Projects
Salt Processing Facility at Savannah River Site
Remediation of Ashtabula
Plutonium Stabilization and Packaging System at the Rocky Flats Environmental Technology Site
Yucca Mountain Proposed Waste Handling Facility
The Department's Strategy for the Disposal of Plutonium
Remote Treatment Facility at Argonne-West
Hanford Waste Packaging Activities
Legacy Waste at Lawrence Livermore National Laboratory


Human Capital

2001-07-10 - Report IG-0512:
Audit Report on "Recruitment and Retention of Scientific and Technical Personnel"


Information Technology

Issued Reports:

2001-12-21—Report IG-0537
Audit Report on “Telecommunications Infrastructure”

2001-08-23 - Report IG-0516:
Audit Report on "Information Technology Support Services Contracts"

2001-06-28 - Report IG-0509:
Audit Report on "Integrated Planning, Accountability, and Budgeting System-Information System"

2001-06-20 - Report IG-0507:
Special Report on "The Department of Energy's Implementation of the Clinger-Cohen Act of 1996"

2001-03-13 - Report IG-0497:
Inspection Report on "Inspection of Concerns Relating to the Management of the Savannah River
Operations Office Learn/Power Information System"

2001-02-13 - Report IG-0494:
Audit Report on "The U.S. Department of Energy's Corporate Human Resource Information System"
Page 20                                                   Fiscal Year 2001-02 Reports Related to the
                                                              Department’s Management Challenges
2001-02-09 - Report IG-0493:
Audit Report on "Internet Privacy"

Ongoing Reviews:

Super Computer Acquisitions
Business Management Information System for Financial Management Phoenix Project
Nuclear Materials Management and Safeguards System


Infrastructure and Asset Management

Issued Reports:

2001-11-09 - Report IG-0530:
Inspection Report on "Inspection of the Management of Personal Property at the Ashtabula Environmental
Management Project"

2001-11-08 - Report INS-O-02-01:
Inspection Report on "Inspection on the Management of Excess Personal Property at Lawrence Livermore
National Laboratory"

2001-10-16 - Report WR-B-02-01:
Audit Report on "Power Marketing Administration's Installation of Fiber Optics"

2001-10-26 - Report IG-0529:
Audit Report on "Accounting for Government-Owned Nuclear Materials Provided to Non-Department
Domestic Facilities"

2001-09-17 - Report IG-0523:
Audit Report on "Sandia National Laboratories Personal Property Accountability"

2001-07-19 - Report IG-0514:
Audit Report on "Administrative Control of the Hanford Reach National Monument"

2001-06-27 - Report IG-0508:
Audit Report on "Stocked Inventory at the Savannah River Site"

2001-05-07 - Report IG-0502:
Audit Report on "Sale of Land at Oak Ridge"

2001-03-22 - Report WR-B-01-04:
Audit Report on "Facility Maintenance at the Idaho National Engineering and Environmental Laboratory"



Page 21                                                   Fiscal Year 2001-02 Reports Related to the
                                                              Department’s Management Challenges
2001-02-27 - Report IG-0496:
Audit Report on "Sale of Enriched Uranium at the Fernald Environmental Management Project"

2001-02-20 - Report INS-O-01-01:
Inspection Report on "Inspection of Lawrence Livermore National Laboratory Credit Card Usage and
Property Management Concerns"

2001-02-02 - Report WR-B-01-01:
Audit Report on "Richland Operations Office Fleet Management"

Ongoing Reviews:

Government-Owned Nuclear Materials Provided to Foreign Facilities
Planned Construction Activities at Idaho National Engineering and Environmental Laboratory
Surplus Facilities
Modernization of the Oak Ridge National Laboratory
Capital Project Management at the Y-12 National Security Complex
Critical Infrastructure Identification and Protection Measures
Oak Ridge Operations Office Management of Personal Property
Savannah River Site Excess Property Concerns


Performance Management

Ongoing Reviews:

Government-Owned Nuclear Materials Provided to Foreign Facilities
Planned Construction Activities at Idaho National Engineering and Environmental Laboratory
Surplus Facilities
Modernization of the Oak Ridge National Laboratory
Capital Project Management at the Y-12 National Security Complex
Critical Infrastructure Identification and Protection Measures
Oak Ridge Operations Office Management of Personal Property
Savannah River Site Excess Property Concerns


Performance Management

Issued Reports:

2001-09-26 - Report IG-0526:
Audit Report on "Dissemination of Research from the Environmental Molecular Sciences Laboratory"




Page 22                                                  Fiscal Year 2001-02 Reports Related to the
                                                             Department’s Management Challenges
2001-09-18 - Report IG-0524:
Audit Report on "Albuquerque Operations Office's Grant Administration"

2001-08-31 - Report IG-0521:
Audit Report on "Administration of Small Business Innovation Research Phase II Grants"

2001-08-31 - Report IG-0520:
Audit Report on "Peer-Reviewed Scientific Literature Generated at the Department's Light Sources"

Ongoing Reviews:

Grant Administration at the Oakland Operations Office
Awards to Educational Institutions


Security and Safety

Issued Reports:

2001-12-14 - Report IG-0534:
Inspection Report on "Lawrence Livermore National Laboratory Protective Force and Special Response
Team"

2001-12-07 - Report IG-0533:
Inspection Report on "Inspection of the Department of Energy's Automated Export Control System"

2001-11-13 - Report IG-0531:
Inspection Report on "Inspection of Cyber Security Standards for Sensitive Personal Information"

2001-07-30 - Report IG-0515:
Audit Report on "Control of Classified Matter at Paducah"

2001-08-30 - Report IG-0519:
Evaluation Report on "The Department's Unclassified Cyber Security Program"

2001-08-30 - Report IG-0518:
Audit Report on "Evaluation of Classified Information Systems Security Program"

2001-08-24 - Report IG-0517:
Inspection Report on "Inspection of Selected Office of Security and Emergency Operations Firearms
Inventories"

2001-06-15 - Report INS-L-01-05:
Letter Report on "Environment, Safety & Health Issues at the Ashtabula Environmental Management
Project"

Page 23                                                     Fiscal Year 2001-02 Reports Related to the
                                                                Department’s Management Challenges
2001-04-12 - Report INS-O-01-04:
Inspection Report on "Inspection of the Purchase of Protective Force Respirators"

2001-04-05 - Report IG-0500:
Audit Report on "Virus Protection Strategies and Cyber Security Incident Reporting"

2001-04-03 - Report I01HQ003:
"Special Review of Profiling Concerns at the Department of Energy"

2001-03-21 - Report INS-O-01-03:
Inspection Report on "Inspection of the Department of Energy's Role in the Commerce Control List and the
U.S. Munitions List"

2001-03-13 - Report INS-O-01-02:
Inspection Report on "Inspection of Selected Coordination Activities by the Department of Energy's Office
of Transportation Safeguards"

2001-02-02 - Report IG-0492:
Inspection Report on "Inspection of Department of Energy Activities Involving Biological Select Agents"

2000-11-20 - Report IG-0488:
Inspection Report on "Inspection of Selected Aspects of the Department of Energy's Classified Document
Transmittal Process"

2000-11-06 - Report INS-L-01-02:
Letter Report on "Security Incident at Technical Area 18, Los Alamos National Laboratory"

2000-10-31 - Report IG-0487:
Audit Report on "The Restructure of Security Services by the Oak Ridge Operations Office"

2000-10-27 - Report IG-0486:
Audit Report on "Federal Energy Regulatory Commission's Dam Safety Program"

Ongoing Reviews:

Personnel Security Clearance and Badge Access Controls
West Valley Security Issues
Status of CI Implementation Plan
SSSP Performance Testing
Improper Collection of Information
Transportation Security at National Nuclear Security Administration – Savannah River
Nuclear Safety Rules at Ohio Sites
Explosives Storage

Page 24                                                       Fiscal Year 2001-02 Reports Related to
                                                           the Department’s Management Challenges
Sealed Radioactive Sources
Kansas City Plant – Beryllium Exposure Concerns
Los Alamos National Laboratory – Reportable Incident Reports
Deemed Export Follow-up
Office of Transportation Safeguards Coordination Follow-up
Classified Document Transmittal Follow-up
Bio Select Agent Follow-up
Explosive Transportation and Security
Motor Carrier Drives/Security


Stockpile Stewardship Program

Issued Reports:

2001-12-18 - Report IG-0535:
Audit Report on "Management of the Stockpile Surveillance Program's Significant Finding Investigations"

2001-10-05 - Report IG-0528:
Audit Report on "Stockpile Surveillance Testing"

2001-03-13 - Report WR-B-01-03:
Audit Report on "Utilization of the Big Explosives Experimental Facility"

2001-02-12 - Report IG-0495:
Audit Report on "The Need for the Atlas Pulsed Power Experimental Facility"

Ongoing Reviews:

Readiness Within the National Nuclear Security Administration
Pit Manufacturing at Los Alamos National Laboratory
Availability of Weapons Systems Non-Nuclear Components




Page 25                                                    Fiscal Year 2001-02 Reports Related to the
                                                               Department’s Management Challenges
Appendix 2

                                          Management Challenges


Crosswalk of Challenges

                                            New Challenges

Performance Management
Research and Development Investment
Stockpile Stewardship

                                          Continuing Challenges

Contract Administration
Energy Supply
Environmental Standards and Stewardship
Human Capital
Information Technology


                                           Restated Challenges

       FY 2001                                     FY 2002

Infrastructure                              Infrastructure and Asset Management
Property Controls and Asset Inventories

Safety and Health                           Security and Safety
Security


                                            Deleted Challenge

Initial Operations of the NNSA




Page 26                                                                      Crosswalk of Challenges
                                                                             IG Report No. : DOE/IG-0538

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
